              Stronger Sanctions Are Needed to Encourage
               Timely Filing of Pass-Through Returns and
                   Ensure Fairness in the Tax System

                                    March 2005

                       Reference Number: 2005-30-048




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 31, 2005


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION
                     COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Stronger Sanctions Are Needed to
                                    Encourage Timely Filing of Pass-Through Returns and Ensure
                                    Fairness in the Tax System (Audit # 200430010)


      This report presents the results of our review of the filing compliance of pass-through
      business taxpayers. The overall objective of this review was to determine whether the
      existing laws, tax regulations, and Internal Revenue Service (IRS) policies and practices
      are adequate, effective, and fair for promoting filing compliance among pass-through
      businesses. Although pass-through businesses such as partnerships1 and
      S corporations2 are not subject to income taxes, they have a significant impact on tax
      administration. For Tax Year (TY) 2001, over 2.1 million partnerships passed through
      total net income of more than $276.3 billion to their individual partners. For the same
      year, almost 3 million S corporations passed through nearly $200 billion in net income to
      their individual shareholders.
      In summary, we found filing noncompliance by partnerships and S corporations is at an
      unacceptably high level, the effectiveness of penalties intended to prevent such
      noncompliance has been eroded by inflation and is generally not applicable to


      1
        An unincorporated business organization in which two or more entities, called general partners, manage the
      business and are equally liable for its debts.
      2
        A small business corporation can elect to be taxed as an S corporation if all of its shareholders consent. This
      election enables the business to avoid corporate income taxes by, in effect, being taxed in the same manner as a
      partnership. These businesses are called S corporations because Subchapter S of the Internal Revenue Code
      provides for such tax treatment.
                                                         2

S corporations, and the noncompliance by pass-through businesses adversely affects
the compliance of partners and S corporation shareholders.
The incidence of late-filed returns, measured as a percentage of total returns filed, is
nearly 2 to 4 times higher among partnerships and S corporations, respectively, than it
is among individual taxpayers. Further, the incidence of late-filed partnership and
S corporation returns is rapidly growing. Between Calendar Years (CY) 2000 and 2003,
the number of late-filed partnership returns increased from almost 167,000 to
approximately 203,000, or 22 percent.3 During the same 4-year period, the growth in
late-filed S corporation returns was 28 percent, increasing from about 450,000 for
CY 2000 to approximately 577,000 for CY 2003. Among the pass-through businesses
filing a late return for TY 2001, 21 percent of the partnerships and 33 percent of the
S corporations had also filed at least 1 other return late between CYs 2000 and 2003.
Late-filed partnership and S corporation returns can have an adverse effect on the filing
and reporting compliance of the individual partners and shareholders. Our computer
analysis of TY 2001 tax return data for more than 817,000 individual partners and
shareholders indicates that the late filing of returns by the pass-through businesses may
have contributed to (1) 49 percent of the individual partners and shareholders obtaining
an extension of time to file their individual income tax returns, (2) 108,587 late-filed
individual income tax returns, and (3) over $1 billion in distributed ordinary income from
late-filing businesses not being reported on individual income tax returns. We estimate
that up to $354 million in individual income taxes may not have been paid on this
unreported pass-through income.
The tax laws, tax regulations, and Revenue Procedures need strengthening to provide
the IRS with the appropriate tools to encourage improved filing compliance by
pass-through businesses and to ensure fairness in the tax system is provided for all
similarly situated pass-through businesses. The tools currently available to the IRS to
improve filing compliance among pass-through businesses are inadequate for a variety
of reasons.
First, the Revenue Procedures allow partnerships made up of 10 or fewer partners that
file late returns to qualify for reasonable cause exceptions and have the late-filing
penalties abated. Since 182,235 (97 percent) of the 187,744 partnerships that filed a
late return for TY 2001 met the criteria of 10 or fewer partners, the vast majority of
partnerships that file late returns either are not assessed delinquency penalties or have
the penalties subsequently abated by the IRS. Only 30,665 (16 percent) of the
187,744 partnerships that filed their TY 2001 returns late actually incurred a financial
cost for their noncompliance.
Second, the tax system is not fair in that the law provides no penalty for late-filed
S corporation returns, whereas the law does provide penalties when other types of
returns are filed late. For TY 2001, the total operating profits reported on late-filed


3
 Except when used in performing calculations, all percentages expressed in this report are rounded to the nearest
whole number.
                                                          3

S corporation returns exceeded those on late-filed partnership returns. The average
shareholder’s pass-through share of the operating profits from late-filing S corporations
was more than double that for late-filing partnerships, and S corporations filed nearly
2.7 times more late returns than partnerships.
Third, the 5-month limit on the penalty for late-filed partnership returns does not allow
the IRS to address the most egregious filing delays. For TY 2001, 27 percent of the
late-filed partnership returns were delinquent by more than 5 months, including
6 percent that were delinquent by more than 1 year.
Fourth, the tax law provides no penalties for the late submission of payee statements4 to
the IRS by partnerships or S corporations. Delays in receiving payee statements can
needlessly delay or complicate the IRS’ process of matching reported income to
individual income tax returns, consuming limited resources of the IRS that could be
more effectively used for other activities.
In addition, the burden of proof is on the IRS to show pass-through businesses that file
late returns also untimely distributed payee statements to their partners and
shareholders. As a result, the IRS could not routinely assess any penalties5 for the late
distribution of payee statements to the 1.7 million partners and shareholders in
pass-through businesses that filed a late return for TY 2001, even though many of these
taxpayers likely did not receive payee statements in time to timely and accurately report
$36 billion in operating profits or other items of income or loss on their tax returns.
Finally, the deterrent effect of the various fixed-dollar penalties provided by law for the
late filing of pass-through returns and payee statements has eroded over time. For
instance, the $50 (per partner per month) penalty for a late-filed partnership return,
established by the Congress in 1978, was worth only $17.22 in 2004 dollars.
To address these issues, we recommended the Commissioner, Large and Mid-Size
Business Division, and the Commissioner, Small Business/Self-Employed Division
(SB/SE), coordinate with the Office of Chief Counsel to amend the tax regulations
and/or develop legislative proposals for the IRS Commissioner to submit to the
Department of the Treasury. The regulatory and statutory changes we recommended
would eliminate the automatic “reasonable cause” exception for late-filed partnership
returns involving 10 or fewer partners; more severely restrict or eliminate the reasonable
cause exceptions for late-filing penalties for partnership returns filed after the extended
due date; and make the penalty for late-filed returns applicable to S corporations as well
as partnerships. The changes would also remove the 5-month limitation on the number
of months of delinquency the late-filing penalty is assessed on partnership returns;
permit the IRS, when a partnership or an S corporation return is filed late, to

4
  A partnership return includes a Partner’s Share of Income, Credits, Deductions, etc. (Schedule K-1) that must be
provided to each partner on or before the due date of the partnership return. Similarly, an S corporation is required
to provide a Shareholder’s Share of Income, Credits, Deductions, etc. (Schedule K-1) to each shareholder on or
before the day on which the S corporation is required to file its return.
5
  26 U.S.C. § 6722 (2003) provides for a penalty of $50 for each payee statement that is not timely provided to an
investor in a partnership or an S corporation.
                                                         4

automatically assess the penalty for the failure to timely furnish payee statements to the
IRS; permit the IRS, when a partnership or an S corporation return is filed more than
7 days after the return due date, to automatically assess a penalty for the failure to
timely provide payee statements to the individual partners or shareholders; and
increase the penalty applicable to late-filed returns and payee statements from $50 to
$200 (at a minimum) to compensate for inflation. In summary, these steps would result
in the assessment of penalties totaling $600 per investor for the first month of filing
delinquency for a pass-through business and an additional $200 penalty per investor for
each additional month of filing noncompliance. We further recommended the
Commissioner, SB/SE Division, conduct a study to determine whether fixed-dollar
penalties set at a $200 level in Internal Revenue Code (I.R.C.) Sections (§§) 6698,
6721, and 67226 will be effective in ensuring future compliance or whether other penalty
types and/or higher amounts would be more effective.
Management’s Response: The Commissioner, SB/SE Division, disagreed with our
recommendation to eliminate reasonable cause exceptions that are based solely on the
number of partners in a partnership. The Commissioner stated the existing statutory
provision does not permit a partnership composed of a certain number of partners to
automatically avoid the I.R.C. § 6698 penalty; Revenue Procedure 84-357 was issued to
provide the reasonable cause exceptions consistent with Congressional intent. The
Commissioner believes our recommendation essentially called for the reversal of
Revenue Procedure 84-35. The Commissioner stated this Revenue Procedure
provides for a reasonable cause standard to apply when a partnership has 10 or fewer
partners, all of whom have included their share of the partnership income in their
income tax returns. If any partner fails to correctly or timely file his or her individual
income tax return, the partnership would not be entitled to the reasonable cause
exception. The Commissioner believes this Revenue Procedure actually encourages
partners to correctly and timely file individual returns so their partnership may qualify for
the reasonable cause exception.
The Commissioner, SB/SE Division, disagreed with our recommendation to eliminate
reasonable cause exceptions for late-filing penalties when a partnership files its return
after the extension date has passed. The Commissioner believes the reasoning in the
report is that an entity that receives an extension of time to file, then fails to file by the
extended due date, has committed “repetitive noncompliance.” However, under current
law, a partnership that is granted an extension of time to file is in compliance with the
law. A partnership that received an extension of time to file a return and nevertheless
filed an inaccurate or untimely return may still meet the reasonable cause exception of
the I.R.C. The fact that the partnership files its return after the extension of time to file
has passed has no bearing on whether the partnership is entitled to the reasonable
cause exception. The failure to file a timely or correct return after receiving an
extension to file does not represent a repetitive act of noncompliance. The


6
    26 U.S.C. § 6698 (2003); 26 U.S.C. § 6721 (2003); 26 U.S.C. § 6722 (2003).
7
    Rev. Proc. 84-35, 1984-1 C.B. 509.
                                              5

Commissioner further stated there was a lack of information or statistics to demonstrate
that adopting this recommendation would result in increased compliance.
The Commissioner, SB/SE Division, stated the decision to implement any of the
remaining recommendations requires not only further study but also input and
concurrence from the Department of the Treasury Office of Tax Policy. The
Commissioner, SB/SE Division, stated the IRS will consult with the Department of the
Treasury Office of Tax Policy regarding the value and merit of conducting a study of the
current penalty structure, related to the filing of pass-through returns, to determine if
changes to the levels and types of penalties would be effective in increasing filing
compliance. The decision as to whether to take further action will be made jointly with
the Department of the Treasury.
The Commissioner, SB/SE Division, stated that, after reviewing the potential benefits
described in Appendix IV of the report, it appeared two important points have not been
fully considered. First, the majority of the outcome measures are the result of proposed
increases in penalties. If the IRS adopts the audit recommendations, the objective
should be to improve the timeliness of pass-through return filings. If the IRS is more
effective in improving filing compliance, there would be fewer penalties assessed, thus
there would be decreases in the outcome measures results over time. Second, and
even more fundamental, the IRS believes penalties should be viewed as a means to
encourage compliance, not as a means to raise revenue. Management’s complete
response to the draft report is included as Appendix V.
Office of Audit Comment: We continue to have concerns about the IRS’ efforts to
encourage filing compliance for pass-through businesses. First, regarding our
recommendation to eliminate reasonable cause exceptions that are based solely on the
number of partners in a partnership, we agree it is IRS Revenue Procedure 84-35, not
I.R.C. § 6698, that permits 97 percent of late-filing partnerships to potentially qualify for
reasonable cause exceptions to the I.R.C. § 6698 late-filing penalty based solely upon
the number of partners. However, we disagree that the Revenue Procedure reflects the
intent of the Congress when it established the late-filing penalty present in I.R.C.
§ 6698.
While the IRS contends reasonable cause exceptions are available only when all
partners have timely and accurately reported their pass-through income, if a partnership
claims that its partners have met this requirement, the burden of proof for establishing
the veracity of such a statement is effectively shifted to the IRS. As this is an
unreasonable and costly administrative burden for the IRS to undertake on a universal
basis, it is unlikely the IRS will challenge the assertion of compliance by a
pass-through business except under extraordinary circumstances. Furthermore, we do
not believe the number of partners participating in a partnership accurately reflects the
economic ramifications of late filing by the partnership. As demonstrated on page 18 of
the report, the highest economic ramifications are reflected in partnerships with the
fewest number of partners. For these reasons, we continue to believe the IRS should
seek Congressional assistance in codifying in the I.R.C. the proper basis for exceptions
to the I.R.C. § 6698 penalty.
                                             6

Second, regarding our recommendation to eliminate reasonable cause exceptions for
partnerships that file after their extended due dates, we agree that obtaining an
extension of time to file does not represent a violation of tax law. While our discussion
on pages 6 through 8 provided examples of flagrant noncompliance as well as
examples of repetitive noncompliance, it was Figure 6 that demonstrated the repetitive
noncompliance of pass-through businesses over several years. The data presented in
Figure 4 regarding businesses with extended due dates covered only 1 year and
demonstrated that 45 percent of late-filed partnership returns and 38 percent of
late-filed S corporations returns had failed to file by their extended due dates. While
these are not repetitive acts of noncompliance, they are multifaceted acts of
noncompliance. We believe failure by a pass-through business to file a timely return
after being granted the privilege of an extension of time to file simultaneously
demonstrates a failure to honor the terms of the extension privilege, a lack of respect for
the statutes that require the timely filing of returns, and a lack of concern for the ability
of its partners or shareholders to be able to file timely and accurate returns. Although
the IRS stated such failures meet the reasonable cause exception of the I.R.C., as the
IRS pointed out in its response, it is Revenue Procedure 84-35, not the I.R.C., that
provides for the reasonable cause exceptions. For these reasons, we believe the IRS
should seek Congressional assistance in codifying in the I.R.C. the proper basis for
exceptions to the I.R.C. § 6698 penalty.
We are encouraged the IRS plans to discuss with the Department of the Treasury
whether to study the remaining recommendations that would increase various
fixed-dollar penalties from the current $50 level to $200 to counteract inflation that has
occurred since the establishment of the current penalty levels; remove the 5-month limit
on the assessment of the I.R.C. § 6698 penalty; subject S corporations to the I.R.C.
§ 6698 penalty; subject partnerships and S corporations to penalties for not filing timely
Schedules K-1 with the IRS; and simplify the assessment criteria for failure to timely
provide Schedules K-1 to partners or S corporation shareholders.
However, from preliminary discussions it was our understanding that these
recommendations would receive prompt attention and that further study would involve
only determinations of whether fixed-dollar penalties set at a $200 level, in accordance
with our recommendations, would be sufficient to achieve and maintain filing
compliance among pass-through businesses. The IRS written response indicates no
changes in the treatment of late-filing pass-through businesses will be acted upon
unless it is decided that a future study is warranted. We believe the need for at least
some immediate action is highlighted on page 25 of the report, where we point out that
the $50 late-filing penalty for partnerships established by the Congress in 1978 had the
economic equivalent of only $17.22 in 2004. Given the serious levels of noncompliance
discussed in the report, we believe immediate action, not potential future study, is
warranted.
Finally, regarding IRS concerns about the revenue that would be generated by our
recommendations, we agree with the IRS that penalties should be viewed as a means
to encourage compliance. As was discussed in the IRS Penalty Policy Statement
                                            7

P-1-18, additional revenue is a by-product of the effort to achieve voluntary compliance,
not a goal in itself. We also agree that such additional revenue will decrease over time
as compliance improves. It is for that reason that increasing compliance and
decreasing penalty revenues were reflected in the computations supporting our
outcome measures in Table 4 of report Appendix IV.
While we still believe all of our recommendations are worthwhile, we do not intend to
elevate our disagreement concerning these matters to the Department of the Treasury
for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
  Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                       and Ensure Fairness in the Tax System




                                                  Table of Contents


Background ............................................................................................... Page 1
Stronger Sanctions Are Needed to Encourage Timely Filing
of Returns by Pass-Through Businesses .................................................. Page 4
         Recommendation 1: .......................................................................Page 26
         Recommendation 2: .......................................................................Page 28
         Recommendations 3 through 5:.....................................................Page 29
         Recommendations 6 through 8:.....................................................Page 30

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 33
Appendix II – Major Contributors to This Report ....................................... Page 35
Appendix III – Report Distribution List ....................................................... Page 36
Appendix IV – Outcome Measures............................................................ Page 37
Appendix V – Management’s Response to the Draft Report .................... Page 44
   Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                        and Ensure Fairness in the Tax System

                                 Certain businesses that are not subject to income tax, such
Background
                                 as partnerships and small business corporations, are often
                                 referred to as “pass-through” or “flow-through” entities. In
                                 general, this means that the profits or losses from these
                                 businesses pass through to the individual partners or
                                 shareholders who must report their shares of the profits or
                                 losses on their U.S. Individual Income Tax Returns
                                 (Form 1040).
                                 A partnership is a type of unincorporated business
                                 organization in which two or more individuals or businesses
                                 join to carry on a trade or business, with each partner
                                 contributing money, property, labor, or skill and each
                                 expecting to share in the profits and losses of the business.
                                 Partnerships are required by Internal Revenue Code (I.R.C.)
                                 Section (§) 6031(a)1 to file a return for each taxable year.
                                 The normal due date for domestic partnerships to file a U.S.
                                 Return of Partnership Income (Form 1065) is the 15th day of
                                 the 4th month following the close of the tax year of the
                                 partnership.2
                                 A small business corporation can elect to organize as an
                                 S corporation3 if all of its shareholders consent.4 As is the
                                 case with partnerships, the election to organize in this
                                 manner results in taxes on the business profits being paid by
                                 the shareholders. I.R.C. § 6037(a)5 requires an
                                 S corporation to file a return for each taxable year. The
                                 normal due date for filing a U.S. Income Tax Return for an




                                 1
                                   26 U.S.C. § 6031(a) (2003).
                                 2
                                   Generally, partnerships that need more time to file a return may
                                 request an automatic 3-month extension by filing an Application for
                                 Automatic Extension of Time To File U.S. Return for a Partnership,
                                 REMIC, or for Certain Trusts (Form 8736) by the regular due date of the
                                 partnership return. An additional 3-month extension can be obtained by
                                 filing an Application for Additional Extension of Time To File U.S.
                                 Return for a Partnership, REMIC, or for Certain Trusts (Form 8800).
                                 3
                                   These businesses are called S corporations because I.R.C. Subtitle A,
                                 Chapter 1, Subchapter S, provides for such tax treatment.
                                 4
                                   To qualify as an S corporation, a small business corporation must not
                                 have more than 75 shareholders, must not have corporate shareholders,
                                 must not have nonresident aliens as shareholders, and must not have
                                 more than 1 class of stock.
                                 5
                                   26 U.S.C. § 6037(a) (2003).
                                                                                                Page 1
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              S Corporation (Form 1120S) is the 15th day of the 3rd month
                              following the close of the corporation’s tax year.6
                              Partnerships and S corporations have a significant impact on
                              tax administration. From 1994 to 2001, the number of
                              partnerships increased by an average of 5 percent7 per year.
                              For Tax Year (TY) 2001, Figure 1 shows there were over
                              2.1 million partnerships with a total of more than
                              14.2 million partners. These partnerships had total assets of
                              $8.4 trillion. In addition, the returns filed by these
                              partnerships passed through total net income of more than
                              $276.3 billion to their individual partners. For the same
                              year, Figure 1 shows there were almost 3 million
                              S corporations that had a total of nearly 5.4 million
                              shareholders. The returns filed by these S corporations
                              passed through nearly $200 billion in net income to their
                              individual shareholders.




                              6
                                An S corporation may request an automatic 6-month extension of time
                              to file Form 1120S by submitting an Application for Automatic
                              Extension of Time To File Corporation Income Tax Return (Form 7004)
                              to the IRS by the normal tax return due date.
                              7
                                Except when used in performing calculations, all percentages
                              expressed in this report are rounded to the nearest whole number.
                                                                                           Page 2
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                                         Figure 1: Number of Pass-Through Businesses
                                                          TY 2001

                                     PASS-THROUGH BUSINESSES           PASS-THROUGH INVESTORS



                                               16.0

                                               14.0
                                                                   14.2
                                               12.0

                                               10.0

                                                8.0

                                                6.0
                                                                                              5.4
                                                4.0

                                                2.0                                  3.0
                                                            2.1

                                                0.0
                                                          PARTNERSHIPS            S CORPORATIONS


                              Source: Internal Revenue Service (IRS) Statistics of Income (SOI)
                              function reports.

                              This review was performed during the period April through
                              October 2004 in accordance with Government Auditing
                              Standards. We did not visit any IRS offices to perform this
                              audit. Instead, we computer-analyzed the IRS Business
                              Master File (BMF)8 to identify those partnerships and
                              S corporations with 1 or more late-filed9 returns during the
                              4-year period of Calendar Years (CY) 2000 through 2003.10
                              We did not test management controls since they were not
                              significant to our audit objective. Some of the data used in
                              this report came from various IRS reports. We did not
                              verify the accuracy of the information from those sources.
                              Detailed information on our audit objective, scope, and
                              methodology is presented in Appendix I. Major
                              contributors to the report are listed in Appendix II.



                              8
                                The IRS database that consists of Federal tax-related transactions and
                              accounts for business taxpayers.
                              9
                                Throughout this report, a late-filed return refers to one received by the
                              IRS after the normal due date or extended due date, if applicable.
                              10
                                 Involves returns for TYs 1999 through 2002.
                                                                                                    Page 3
   Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                        and Ensure Fairness in the Tax System

                                 The incidence of late-filed returns is significantly higher
Stronger Sanctions Are Needed
                                 among partnerships and S corporations than it is among
to Encourage Timely Filing of
                                 individual taxpayers. The number of returns filed late by
Returns by Pass-Through
                                 partnerships and S corporations is also growing at a rapid
Businesses
                                 pace and frequently involves flagrant and repetitive
                                 noncompliance.
                                 Late-filed partnership and S corporation returns can have an
                                 adverse effect on the filing and reporting compliance of the
                                 individual partners and shareholders. For TY 2001 alone,
                                 over $1 billion in pass-through income from late-filed
                                 partnership and S corporation returns was not reported on
                                 individual income tax returns. We estimate that nearly
                                 $354 million in individual income taxes was not paid on this
                                 unreported pass-through income.
                                 The existing tax laws, tax regulations, and Revenue
                                 Procedures need strengthening to provide the IRS with the
                                 appropriate tools to encourage improved filing compliance
                                 by pass-through businesses and to ensure fairness in the tax
                                 system is provided for all similarly situated pass-through
                                 businesses. Under the existing tax laws and regulations,
                                 delinquency penalties are successfully avoided by most
                                 late-filing partnerships and are not even imposed on
                                 late-filing S corporations. In addition, the delinquency
                                 penalties that are charged to late-filing partnerships have
                                 little deterrent effect and do not impose significant costs on
                                 egregious noncompliance.
                                 The late filing of returns by pass-through businesses is a
                                 large and significantly growing problem
                                 According to IRS statistics for TY 2001, partnerships and
                                 S corporations passed through the following tax-altering
                                 items to their owners: $471 billion in profits and
                                 $215 billion in losses from business operations, $86 billion
                                 in profits and $37 billion in losses from real estate rentals,
                                 $97 billion in interest income, $26 billion in dividend
                                 income, $57 billion in net capital gains, and $25 billion in
                                 other net income.
                                 The timeliness of the reporting of such large sums to the
                                 owners of the pass-through businesses has significant tax
                                 implications. However, nearly 188,000 partnerships and
                                 nearly 500,000 S corporations filed returns for TY 2001

                                                                                         Page 4
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              after their due dates (as extended). As shown in Figure 2,
                              the late-filing rate for partnership returns, measured as a
                              percentage of total returns filed, was twice that of individual
                              income tax returns, while the late-filing rate for
                              S corporation returns was nearly four times as high as that
                              of individual returns.
                                   Figure 2: Comparison of Late Return Filing Rates Among
                                         Individuals, Partnerships, and S Corporations
                                                           TY 200111

                                   18.0%

                                   16.0%

                                   14.0%                                                 16.7%

                                   12.0%

                                   10.0%

                                    8.0%

                                                                     8.8%
                                    6.0%

                                    4.0%

                                                  4.4%
                                    2.0%

                                    0.0%
                                               INDIVIDUALS       PARTNERSHIPS       S CORPORATIONS


                              Source: Treasury Inspector General for Tax Administration (TIGTA)
                              analysis of IRS Individual Master File (IMF)12 and BMF data.

                              Further, the incidence of late-filed partnership and
                              S corporation returns is rapidly growing. Between
                              CYs 2000 and 2003, the number of late-filed partnership
                              returns increased from almost 167,000 to approximately
                              203,000, or 22 percent. During the same 4-year period, the
                              growth in late-filed S corporation returns was even higher,
                              increasing by 28 percent from about 450,000 in CY 2000 to
                              approximately 577,000 in CY 2003.


                              11
                                 Pass-through returns were considered late if filed more than 7 days
                              beyond the later of the normal return due date, extended due date, or
                              disaster due date.
                              12
                                 The IRS database of Federal tax-related transactions and accounts for
                              individual taxpayers.
                                                                                                 Page 5
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Figure 3 shows the overall growth of late-filed pass-through
                              returns is nearly twice the growth in the total number of
                              pass-through returns filed.
                               Figure 3: Growth in Total Returns Filed and Late-Filed Returns
                                            for Partnerships and S Corporations
                                                      CYs 2000 – 2003


                                   30.0%

                                   25.0%                                      26.4%

                                   20.0%

                                   15.0%
                                                    14.9%
                                   10.0%

                                    5.0%


                                    0.0%
                                           INCREASE IN RETURNS FILED   INCREASE IN LATE-FILED
                                                                             RETURNS


                              Source: TIGTA analysis of IRS BMF data.

                              Filing noncompliance among pass-through businesses is not
                              only a large and growing problem, it also involves many
                              examples of flagrant and repetitive noncompliance. For
                              TY 2001, Figure 4 shows that 45 percent of the late-filed
                              partnership returns and 38 percent of the late-filed
                              S corporation returns were late even though the businesses
                              had obtained extensions of time to file.




                                                                                                Page 6
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                                     Figure 4: Frequency of Extensions of Time to File
                                  Among Delinquent Partnership and S Corporation Returns
                                                        TY 2001

                                          FILED LATE, NO EXTENSION   FILED LATE AFTER EXTENSION


                                  100%

                                                      45%                         38%
                                    75%


                                    50%

                                                      55%                         62%
                                    25%


                                     0%
                                                PARTNERSHIPS               S CORPORATIONS


                              Source: TIGTA analysis of IRS BMF data.

                              Figure 5 shows that over 25 percent of the late-filed
                              partnership and S corporation returns were 6 months or
                              more delinquent.
                                 Figure 5: Late-Filed Partnership and S Corporation Returns
                                             by Range of Months of Delinquency
                                                          TY 2001

                                       1 YEAR OR MORE BEYOND DUE DATE (AS EXTENDED)
                                       6 TO 11 MONTHS BEYOND DUE DATE (AS EXTENDED)
                                       5 OR FEWER MONTHS BEYOND DUE DATE (AS EXTENDED)

                                    100%
                                                        6%                         6%
                                     90%
                                                       21%                         20%
                                     80%

                                     70%

                                     60%

                                     50%

                                     40%
                                                  PARTNERSHIPS              S CORPORATIONS

                              Source: TIGTA analysis of IRS BMF data.

                              Figure 6 shows that late filing of returns is not an isolated
                              one-time occurrence for many partnerships and
                              S corporations. For example, 21 percent of the partnerships
                              that filed a late return for TY 2001 also filed at least 1 other
                              late return during the 4-year period of CYs 2000 through
                              2003. Similarly, 33 percent of the S corporations that filed a

                                                                                                  Page 7
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              late return for TY 2001 also filed at least 1 other late return
                              during the same 4-year period.
                                   Figure 6: Pass-Through Businesses With More Than One Late
                                             Return Filed Between CYs 2000 and 2003

                                                                          35%




                                         Percent of TY 2001 Late Filers
                                                                          30%

                                                                          25%

                                                                          20%
                                                                                                                       32.5%
                                                                          15%

                                                                          10%             21.2%

                                                                          5%

                                                                          0%
                                                                                      PARTNERSHIPS                S CORPORATIONS
                                                                                TY 2001 Late Filers With More Than One Late Return Filed
                                                                                              Between CY 2000 and CY 2003


                              Source: TIGTA analysis of IRS BMF data.

                              The late filing of pass-through returns appears to also
                              affect filing and reporting compliance by the individual
                              partners and shareholders
                              The importance of the timely filing of returns by
                              pass-through businesses can be easily overlooked since
                              these businesses rarely incur any tax liabilities. However,
                              the profits or losses of pass-through businesses can
                              significantly influence the individual income tax liabilities
                              of their partners and shareholders.
                              To comply with the normal April 15 deadline for filing
                              individual income tax returns, the individual partners and
                              shareholders in partnerships and S corporations,
                              respectively, need to receive timely, accurate, and complete
                              payee statements on their pass-through income or losses. A
                              partnership return includes a Partner’s Share of Income,
                              Credits, Deductions, etc. (Schedule K-1) that must be
                              provided to each partner on or before the due date of the
                              partnership return. Similarly, I.R.C. § 6037(b)13 requires an
                              S corporation to provide a Shareholder’s Share of Income,
                              Credits, Deductions, etc. (Schedule K-1) to each shareholder
                              on or before the day on which the S corporation is required
                              to file its return.

                              13
                                   26 U.S.C. § 6037(b) (2003).
                                                                                                                                           Page 8
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Although much more elaborate, a Schedule K-1 serves the
                              same purpose for a partner or shareholder as a Wage and
                              Tax Statement (Form W-2) does for an individual employee.
                              The Schedule K-1 contains information on each investor’s
                              share of the profit or loss from the business operations as
                              well as the investor’s share of interest and dividend income,
                              rental profits or losses, and capital gains or losses. To fully
                              comply with individual income tax laws, an investor must
                              report all items of income and loss from the Schedule K-1
                              on a timely filed individual income tax return.
                              Following the assumption that a late-filed partnership or
                              S corporation return may also mean the Schedules K-1 were
                              not timely prepared and provided to the individual partners
                              or shareholders, we computer-analyzed the IRS Information
                              Returns Master File14 and identified 817,425 individuals
                              who received a Schedule K-1 from a partnership or an
                              S corporation that had filed a late return for TY 2001.15 In
                              analyzing the filing and income reporting compliance of
                              these individuals,16 we found that only 78 percent had been
                              fully compliant in both timely filing their individual income
                              tax returns for TY 2001 and fully reporting pass-through
                              operating gains from the Schedules K-1.




                              14
                                 The IRS database of information returns received from employers,
                              financial institutions, and other businesses reporting wages, interest,
                              dividends, nonemployee compensation, and other types of income. The
                              IRS uses these information documents in its computer-matching
                              programs to determine whether the income recipients filed tax returns
                              and/or reported all of their income.
                              15
                                 We estimate there were 1.7 million partners and shareholders
                              involved in the 687,521 TY 2001 late-filing pass-through businesses.
                              This reflects the actual number of partners for late-filing partnerships as
                              recorded on the IRS BMF (0.8 million). We were unable to obtain exact
                              counts of the number of shareholders for each late-filing S corporation;
                              therefore, we relied on the average number of 1.8 shareholders per
                              S corporation as reflected in the IRS SOI function publications for
                              TY 2001.
                              16
                                 Our compliance checks did not include businesses or trusts that may
                              have been involved in the late-filing pass-through businesses. We were
                              able to identify 1 or more individual owners involved in 421,560 of the
                              687,521 TY 2001 late-filing pass-through businesses.
                                                                                                 Page 9
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Figure 7 provides a summary of the filing and reporting
                              characteristics of the 817,425 individual partners and
                              shareholders.17
                                      Figure 7: Impact of Late-Filed Pass-Through Returns
                                      on the Individual Partners and Shareholders (TY 2001)

                                         S CORPORATION INVESTORS     PARTNERSHIP INVESTORS


                                                                                    51%
                                    INVESTOR OBTAINED EXTENSION
                                                                                   48%

                                    FORM 1040 FILED AFTER FORMS              31%
                                            1065/1120S                             52%

                                                                                          69%
                                   FILED BEFORE FORMS 1065/1120S
                                                                                   48%

                                    FILING & REPORTING-COMPLIANT                           77%
                                              INVESTORS                                    78%

                                                                      12%
                                               RETURN FILED LATE
                                                                       15%

                                    NO PASS-THROUGH PROFITS OR          21%
                                         LOSSES REPORTED             10%

                                    ONLY PARTIAL PASS-THROUGH      2%
                                         PROFITS REPORTED          3%

                                                                    6%
                                                NO RETURN FILED
                                                                   3%

                                                                0%    20%    40%   60%    80% 100%


                              Source: TIGTA analysis of IRS IMF data.

                              A strong indicator of the correlation between late-filed
                              pass-through returns and the untimely distribution of


                              17
                                 Returns were considered timely if received within 7 days of the later
                              of the normal tax return due date or the extended return due date. For
                              purposes of evaluating income reporting compliance, we sought to
                              match the owner’s share of partnership profits shown on line 22 of
                              Form 1065 or the owner’s share of S corporation profits shown on
                              line 21 of Form 1120S, as reflected on line 1 of Schedules K-1. These
                              profits (ordinary income from trade or business activities) were matched
                              to income reported by the owners on Form 1040 Supplemental Income
                              or Loss (Schedule E), Part II. We did not attempt to match other items
                              of income or loss to Form 1040 tax returns. Taxpayers reporting total
                              pass-through gains on Forms 1040 Schedule E, Part II that equaled or
                              exceeded the pass-through ordinary income of the late-filing businesses
                              shown on Schedules K-1 were considered to be compliant for income
                              reporting purposes. See Appendix IV for further details.
                                                                                                Page 10
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Schedules K-1 is that 403,912 (49 percent) of the
                              817,425 partners and shareholders obtained extensions of
                              time to file their TY 2001 individual income tax returns. By
                              comparison, only 6 percent of all individual taxpayers
                              obtained extensions of time to file in TY 2001.
                              Individual taxpayers involved in partnerships and
                              S corporations need the Schedule K-1 information to timely
                              and accurately complete their individual income tax returns.
                              Individual partners and shareholders that have not received
                              a Schedule K-1 by April 15 may need to request an
                              extension of time to file from the IRS to avoid late-filing
                              penalties. Individual partners and shareholders may need to
                              obtain extensions of time to file if the pass-through business
                              was simply late in issuing its Schedules K-1 or if the
                              business obtained an extension of time to file the
                              pass-through return.18
                              There is substantial taxpayer burden associated with
                              requesting an extension. According to IRS estimates, an
                              individual taxpayer expends 67 minutes19 in obtaining a
                              4-month extension to August 15. Individual partners and
                              shareholders who have still not received a Schedule K-1 by
                              August 15 may need to request an additional 2-month
                              extension of time to file. According to the IRS, an
                              individual taxpayer expends an additional 46 minutes20 to
                              request an additional 2-month extension to October 15.
                              Based on these time requirements, we estimate the
                              individual taxpayers involved in partnerships and
                              S corporations that filed a late return for TY 2001 expended
                              a total of 642,615 hours in obtaining extensions of time to




                              18
                                 For TY 2001, approximately 98 percent of all partnerships operated
                              on a calendar year basis and, therefore, had an April 15 filing due date;
                              this is the same due date each of the individual partners had for filing
                              their individual income tax returns.
                              19
                                 Estimate is provided in the taxpayer instructions for completing the
                              Application for Automatic Extension of Time To File U.S. Individual
                              Income Tax Return (Form 4868) for TY 2001.
                              20
                                 Estimate is provided in the taxpayer instructions for completing the
                              Application for Additional Extension of Time To File U.S. Individual
                              Income Tax Return (Form 2688) for TY 2001.
                                                                                               Page 11
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              file.21 The Office of Management and Budget (OMB)
                              values these taxpayer burden hours at $17 million.22
                              Despite the availability of extensions of time to file,
                              108,587 (13 percent) of the 817,425 individual partners and
                              shareholders delinquently filed their TY 2001 individual
                              income tax returns after their normal or extended due dates,
                              as applicable. This late-filing rate was more than 3 times
                              the TY 2001 late-filing rate of 4 percent for all individual
                              income tax returns. This unusually high late-filing rate may
                              be attributable to the fact that 26 percent of the late-filed
                              partnership and S corporation returns for TY 2001 were
                              filed after October 15, 2002 – the maximum extended due
                              date for TY 2001 individual income tax returns.
                              Since the Schedule K-1 contains each investor’s share of the
                              income and loss information from the business return, the
                              business return logically must be completed prior to the
                              Schedule K-1. In addition, once the business return is
                              completed, there would seem to be little reason for not filing
                              it with the IRS at the same time the Schedules K-1 are
                              furnished to the individual partners and shareholders.
                              Therefore, it seems logical to expect that the pass-through
                              business return would normally be received by the IRS
                              before the related individual income tax returns.
                              For the 817,425 individual taxpayers involved in
                              partnerships and S corporations that filed late returns for
                              TY 2001, we found 69 percent and 48 percent, respectively,
                              had filed their individual income tax returns before the
                              pass-through returns were filed. This raises questions about
                              the accuracy of the information reported on the individual
                              income tax returns. It is possible that some taxpayers, to
                              avoid filing late themselves, may make educated guesses


                              21
                                 Of the 817,425 individuals identified as having received
                              Schedules K-1 from late-filing pass-through businesses,
                              403,912 expended 67 minutes each to request extended due dates of
                              August 15, 2002, for filing their TY 2001 individual income tax returns.
                              Of these extended due date taxpayers, 249,887 also expended
                              46 minutes each to request additional 2-month extensions.
                              22
                                 The OMB measures paperwork burden in terms of the time and
                              financial resources the public devotes to complying with information
                              requests. The OMB’s estimate of the cost-per-hour of taxpayer burden
                              is $26.50.
                                                                                             Page 12
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              regarding the information they expect to receive on the
                              Schedule K-1, while other taxpayers may simply choose to
                              file without reporting the Schedule K-1 information. This
                              may explain, in part, the discrepancies we identified
                              between the profits reported on the Schedules K-1 and those
                              reported on the individual income tax returns of the partners
                              and shareholders.
                              As shown in Figure 8, for TY 2001, the 817,425 partners
                              and shareholders failed to report (either partially or entirely)
                              more than $1 billion in business operating profits from
                              partnerships or S corporations that had filed late returns.
                              We estimate that up to $354 million in individual income
                              taxes may not have been paid on this unreported
                              pass-through income.23
                                   Figure 8: Reporting Noncompliance by Individual Taxpayers
                                      in Partnerships and S Corporations With Late Returns
                                                             TY 2001

                                                S CORPORATION INVESTORS   PARTNERSHIP INVESTORS

                                   $900
                                                                  $823
                                   $800
                                                                 $179
                                   $700
                                   $600
                                   $500
                                                                                     $354
                                   $400
                                   $300                          $644                 $82
                                               $203
                                   $200
                                                $65
                                                                                     $272
                                   $100
                                               $138
                                    $0
                                           PASS-THROUGH      PASS-THROUGH        TAX IMPACT OF
                                            PROFITS FOR       PROFITS NOT         UNREPORTED
                                          NONFILED RETURNS    REPORTED ON           PROFITS
                                                                RETURN


                              Source: TIGTA analysis of IRS Master File data.




                              23
                                Tax losses were estimated by relying on the marginal tax rates of
                              individuals that underreported Schedule K-1 ordinary operating gains on
                              returns filed. We did not attempt to determine the reasons for the
                              taxpayer omissions, such as whether the income may have been offset
                              by equivalent losses and, therefore, both income and losses were omitted
                              from the tax returns by the taxpayers.
                                                                                            Page 13
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              If the filing compliance of pass-through businesses was
                              improved, we estimate that individual income tax revenues
                              could be increased by up to $1.2 billion between CYs 2006
                              and 2010 due to more accurate reporting of ordinary gains
                              received by individual partners and shareholders. See
                              Appendix IV for details.
                              The late filing and/or nonfiling of pass-through returns
                              is also problematic for the IRS
                              The timely receipt of financial information related to the
                              operation of pass-through businesses is not only important
                              to their partners and shareholders, it is also important for the
                              efficient and effective operations of the IRS. For example,
                              the information from a pass-through business return is
                              needed by the IRS to ensure the accuracy of both the return
                              and the Schedules K-1 issued to the partners and
                              shareholders. The information from the Schedules K-1 is
                              also needed by the IRS to ensure the proper reporting of that
                              information on the individual income tax returns of the
                              partners and shareholders.
                              The untimely receipt of pass-through business returns,
                              Schedules K-1, and/or individual income tax returns of the
                              applicable partners and shareholders can delay and
                              complicate these processes for the IRS. In addition, delays
                              in receiving either the business or individual returns can
                              result in the issuance of delinquency notices or even more
                              expensive Taxpayer Delinquency Investigations (TDI) to
                              secure the nonfiled returns. All of these processes consume
                              the limited resources of the IRS.
                              Our audit concentrated on late-filed pass-through business
                              returns rather than nonfiled returns. However, categorizing
                              a taxpayer as either a late filer or a nonfiler often depends
                              on the day on which the categorization is made. For
                              instance, a taxpayer not filing by the return due date could
                              be considered a nonfiler on the day after the due date.
                              However, if the taxpayer subsequently files a return, either
                              voluntarily or as a result of IRS enforcement actions, the
                              taxpayer will be categorized as a late filer rather than a
                              nonfiler.
                              Approximately 11 percent of the late-filed TY 2001
                              pass-through business returns filed through December 2003

                                                                                      Page 14
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              were received by the IRS following IRS inquiries about the
                              missing returns. As indicated by a recent IRS study,24 there
                              may yet be more returns that are still due but not yet filed.
                              The study, completed in December 2003, identified
                              6,419 delinquent partnerships that had a total of
                              8,956 nonfiled returns as of September 2002. Of these,
                              96 percent were 1 or more years past the due date of the
                              return.
                              Because the IRS does not have the resources to address
                              every identified case of potential taxpayer noncompliance,
                              only 4 percent of the nonfiled partnership returns that were
                              1 or more years past due were in TDI status, which made
                              them subject to the full range of compliance treatments25 by
                              the IRS.26 For the remaining 96 percent of the partnership
                              returns that were 1 or more years past due, the IRS had
                              taken no enforcement action beyond issuing return
                              delinquency notices that were unsuccessful in resolving the
                              nonfiling situations.
                              The same study also identified 19,747 corporations that had
                              a total of 26,552 nonfiled returns as of September 2002. Of
                              these, 75 percent were 1 or more years past due. Only
                              11 percent of the corporate returns that were 1 or more years
                              past due were in TDI status.27
                              The tax laws and regulations do not provide sufficient
                              tools for the IRS to effectively address late filing by
                              pass-through businesses
                              The I.R.C. authorizes the IRS to assert a variety of civil
                              penalties, as needed, to encourage voluntary compliance

                              24
                                 Large and Mid-Size Business Non-filer Report, Phase II, Strategy
                              Research and Program Planning Project 0502, December 2003.
                              25
                                 The full range of compliance treatments for cases in TDI status
                              includes assignment to the Automated Collection System inventory for
                              telephone contact with the taxpayer or assignment to the Collection
                              Field function inventory for personal contact with the taxpayer.
                              26
                                 The 2003 study cited a December 2002 IRS study that indicated the
                              low percentage of delinquent returns in TDI status situation was
                              attributed in part to a policy decision not to apply compliance resources
                              to certain types of nonfiled returns.
                              27
                                 Total included 1,524 S corporations. However, the study report did
                              not separate S corporations from other taxable corporations for the total
                              number of nonfiled returns and the percentage of delinquent returns in
                              TDI status.
                                                                                              Page 15
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              with America’s tax laws. For most taxpayers, voluntary
                              compliance consists of preparing an accurate return, filing it
                              by the return due date, and timely paying any taxes due.
                              Penalties constitute one important tool for the IRS in
                              pursuing its mission of collecting the proper amount of tax
                              revenue at the least cost. Historically, the IRS has used
                              penalties to encourage voluntary compliance by (1) helping
                              taxpayers understand that compliant conduct is appropriate
                              and that noncompliant conduct is not, (2) deterring
                              noncompliance by imposing costs on it, and (3) establishing
                              fairness of the tax system by justly punishing the
                              noncompliant taxpayer.
                              However, the existing tax laws and regulations fail to
                              provide the IRS with the necessary penalty sanctions to
                              effectively and fairly encourage the timely filing of
                              pass-through business returns or the timely submission of
                              Schedules K-1 to the partners, shareholders, and IRS.
                              Penalties are avoided by most late-filing partnerships
                              I.R.C. § 669828 imposes a penalty for the failure to timely
                              file a partnership return. The penalty is $50 per partner for
                              each month, or fraction of a month, that the return is filed
                              late, not to exceed 5 months. For TY 2001, the IRS
                              assessed penalties totaling $36.2 million for late-filed
                              partnership returns.
                              However, the penalty was not effectively promoting
                              voluntary compliance because it was avoided by 84 percent
                              of the partnerships that filed late returns for TY 2001. The
                              IRS initially assessed the penalty on less than one-third of
                              the late-filed partnership returns to which it could apply. In
                              addition, nearly one-half of the partnerships against which
                              the late-filing penalty was assessed subsequently had it
                              abated by the IRS.
                              Figure 9 shows that penalties were assessed on only
                              57,353 (31 percent) of the 187,744 partnership returns that
                              were filed late for TY 2001. The IRS subsequently abated
                              26,688 (47 percent) of these penalties totaling $20.4 million.
                              This means that only 30,665 (16 percent) of the


                              28
                                   26 U.S.C. § 6698 (2003).
                                                                                    Page 16
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              187,744 partnerships that filed their returns late actually
                              incurred a cost for their noncompliance.
                                                                            Figure 9: Penalties Assessed and Abated on
                                                                                  Late-Filed Partnership Returns
                                                                                             TY 2001


                                                                      200,000     187,744


                                                                      180,000




                                   LATE TY 2001 PARTNERSHIP RETURNS
                                                                      160,000

                                                                      140,000

                                                                      120,000

                                                                      100,000

                                                                       80,000                   57,353

                                                                       60,000
                                                                                                                         30,665
                                                                       40,000                               26,688

                                                                       20,000

                                                                           0
                                                                                  LATE       PENALTY     PENALTY     UNABATED
                                                                                RETURNS     ASSESSED     ABATED      PENALTIES


                              Source: TIGTA analysis of IRS Master File data.

                              One reason for the frequently avoided or abated penalties is
                              that the Revenue Procedures allow “small” partnerships
                              (defined by I.R.C. § 6231(a)(1)(b)29 as those made up of
                              10 or fewer partners)30 that file late returns to qualify for
                              reasonable cause exceptions and have the late-filing
                              penalties abated. To qualify, a partnership must establish
                              that all partners have fully reported their share of the
                              income, deductions, and credits of the partnership on their
                              timely filed individual income tax returns.31
                              Figure 10 shows that 182,235 (97 percent) of the
                              187,744 partnerships that filed a late return for TY 2001 met
                              the criteria of 10 or fewer partners. By excusing small
                              partnerships for their delinquency, the IRS is allowing

                              29
                                 26 U.S.C. § 6231(a)(1)(b) (2003).
                              30
                                 The instructions for completing a partnership return advise the
                              preparer to answer “no” to Question 4 on Schedule B of Form 1065 if
                              the partnership had 10 or fewer partners.
                              31
                                 Rev. Proc. 84-35, 1984-1 C.B. 509.
                                                                                                                             Page 17
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              almost all partnerships to avoid paying penalties for
                              late-filed returns.
                                    Figure 10: Net Pass-Through Income per Partner From
                                               Late-Filed Partnership Returns
                                                          TY 2001

                                                   NUMBER OF PARTNERSHIPS
                                                   OPERATING PROFITS PER PARTNER
                               Thousands                                             $Thousands
                                140                                                        $45
                                              $40
                                 120                                                      $40
                                                                                          $35
                                 100         126
                                                                                          $30
                                  80                               $26                    $25
                                  60                                                      $20
                                                              56                          $15
                                  40
                                                                                          $10
                                  20                                                $5    $5
                                                                                6
                                   0                                                      $0
                                         2 partners         3 to 10       11 or more
                                                           partners        partners
                                           NUMBER OF PARTNERS IN PARTNERSHP


                              Source: TIGTA analysis of IRS Master File data.

                              Figure 10 also shows that, by excusing small partnerships,
                              the IRS is allowing the partnerships that pass through the
                              highest amount of operating profits per partner to avoid
                              penalties for late filing. Of the late-filed partnership returns
                              for TY 2001 that involved only 2 partners, the ordinary
                              income that was passed through averaged $39,874 per
                              partner. On the other hand, the late-filed partnership returns
                              with 11 or more partners averaged only $5,337 in ordinary
                              income per partner. Yet, the IRS subjects only these “large”
                              partnerships to late-filing penalties.
                              If the Revenue Procedures were changed to remove the
                              automatic reasonable cause exception for late filing by
                              partnerships with 10 or fewer partners and all late-filing
                              partnerships were assessed penalties when applicable, we
                              estimate that additional penalty assessments of
                              approximately $253.5 million would result between



                                                                                         Page 18
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              CYs 2006 and 2010 while filing compliance would
                              improve.32 See Appendix IV for details.
                              Penalties are not imposed on late-filed S corporation
                              returns
                              The absence of penalties for late-filed S corporation returns
                              is an unfair aspect of the tax system. Although individuals,
                              taxable corporations, and partnerships face penalties for
                              late-filed returns, S corporations do not. This exception for
                              S corporations, which operate their businesses and are
                              subject to the same pass-through tax status as partnerships,
                              implies that accountability for pass-through income from
                              S corporation returns is less significant than that from
                              partnership returns.
                              As shown in Figure 11, however, the individual
                              shareholders in S corporations earned pass-through income
                              for TY 2001 that was, on average, twice the amount of the
                              pass-through income earned by the individual partners of
                              partnerships.




                              32
                               Estimate assumes the level of filing noncompliance found for
                              TY 2001 is typical.



                                                                                          Page 19
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Figure 11: Comparison of Pass-Through Ordinary Gains Reported
                                     on TY 2001 Partnership and S Corporation Returns33


                                                               $40,000




                                   AVERAGE OPERATING PROFITS
                                                               $35,000
                                                                                            $38,320
                                                               $30,000




                                          PER INVESTOR
                                                               $25,000

                                                               $20,000

                                                               $15,000
                                                                            $18,657
                                                               $10,000

                                                                $5,000

                                                                   $0
                                                                         PARTNERSHIPS   S CORPORATIONS



                               Source: IRS SOI function reports data for TY 2001.

                              Figure 12 shows that both the volume of late-filed
                              S corporation returns and the level of pass-through income
                              from these late-filed returns create more serious compliance
                              problems for the IRS than filing noncompliance by
                              partnerships. For TY 2001, almost 500,000 (17 percent) of
                              the 3 million returns filed by S corporations were received
                              after the tax return due date (as extended). The absence of
                              even a nominal penalty to deter late filing may contribute to
                              the rate of late-filed S corporation returns being almost
                              twice the rate of late-filed partnership returns (9 percent).




                              33
                                Reflects total operating profits of all businesses divided by the total
                              number of shareholders or partners participating in all businesses and
                              includes all returns, regardless of whether they were timely filed.
                                                                                                      Page 20
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Figure 12: Filing Noncompliance by Pass-Through Businesses and
                                       Its Implications for Partners and Shareholders
                                                           TY 2001

                                       LATE RETURNS (Thousands)     OPERATING PROFITS ($Billions)


                                 600                                                       $20.0
                                             $17.6                              $18.5      $18.0
                                 500
                                                                                           $16.0
                                                                          500
                                                                                           $14.0
                                 400
                                                                                           $12.0
                                 300                                                       $10.0
                                                                                           $8.0
                                 200
                                                                                           $6.0
                                                 188
                                                                                           $4.0
                                 100
                                                                                           $2.0
                                   0                                                       $0.0
                                             PARTNERSHIPS           S CORPORATIONS


                              Source: TIGTA analysis of IRS Master File data.

                              We estimate that changing the law to establish a penalty for
                              late-filed S corporation returns would result in additional
                              penalty assessments of $444.2 million between CYs 2006
                              and 2010 while improving filing compliance. See
                              Appendix IV for details.
                              The 5-month limit on the penalty for late-filed
                              partnership returns does not address the full extent of
                              the noncompliance problem
                              The penalty for the late filing of a partnership return is
                              limited by I.R.C. § 6698 to a maximum of 5 months. As
                              previously shown in Figure 5, however, 27 percent of the
                              late-filed partnership returns for TY 2001 were filed more
                              than 5 months after their due dates (as extended).
                              If the automatic reasonable cause exception for late filing by
                              partnerships with 10 or fewer partners was eliminated, the
                              5-month cap on assessing late-filing penalties would still
                              prevent the IRS from assessing higher penalties on the
                              partnerships that were the most egregious in their filing
                              noncompliance. For example, a partnership with 2 partners
                              that filed its return more than 1 year late would be subject to
                              the same maximum late filing penalty of $500 as a

                                                                                           Page 21
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              partnership with 2 partners that filed its return only
                              5 months late.
                              Assuming the filing delays found in TY 2001 were typical,
                              we estimate that changing the tax law to eliminate the
                              5-month penalty cap on all late-filed pass-through returns
                              would result in additional penalty assessments of
                              $316.2 million between CYs 2006 and 2010 while
                              improving filing compliance. See Appendix IV for details.
                              The tax law does not provide penalties for the late
                              submission of Schedules K-1 to the IRS
                              Copies of Schedules K-1 that report the distribution of
                              profits to investors are required to be attached to the
                              partnership or S corporation return filed with the IRS. In
                              TY 2001, late-filed pass-through returns distributed
                              $36 billion in operating profits to approximately 1.7 million
                              partners and shareholders.34
                              The law does not impose a penalty specifically for the
                              late-filing of Schedules K-1 by partnerships or
                              S corporations.35 In contrast, I.R.C. § 6721 provides a
                              $50 penalty for the late filing of each information return,
                              such as Interest Income (Form 1099-INT), reporting various
                              types of income payments to individual taxpayers.
                              As previously discussed in this report, information from the
                              Schedules K-1 is needed for the IRS to ensure the proper
                              reporting of pass-through income on individual income tax
                              returns. Delays in the IRS’ receipt of Schedules K-1 can
                              needlessly delay or complicate this process and consume the
                              limited resources of the IRS that could be more effectively
                              used for other activities.


                              34
                                 Reflects the actual number of partners for late-filing partnerships as
                              recorded on the IRS BMF (0.8 million). We were unable to obtain exact
                              counts of the number of shareholders for each late-filing S corporation;
                              therefore, we relied on the average number of 1.8 shareholders per
                              S corporation as reflected in the IRS SOI function publications for
                              TY 2001.
                              35
                                 Although the late filing of Schedules K-1 does not result in a penalty,
                              a $50 penalty is assessed under I.R.C. § 6721 (2003) if Schedules K-1
                              (whether timely or late) are not filed with the IRS electronically by a
                              partnership with more than 100 partners. For the electronic filing
                              penalty, each Schedule K-1 is treated as a separate information return.
                                                                                              Page 22
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              In 1982, the Congress increased the penalty for the late
                              filing of information returns with the IRS from $10 to $50
                              each. In discussing this, the Senate Finance Committee
                              explained its reasons for the change as follows:36
                                         The Committee believes that inadequate information
                                         reporting of non-wage income is a substantial factor
                                         in the underreporting of such income by taxpayers.
                                         In many cases, persons who are required to make
                                         information reports do not do so because they
                                         consider the informational forms unimportant or the
                                         cost of their processing is more than the cost of the
                                         penalty that might be incurred for failure to comply
                                         with the filing requirements. The committee believes
                                         that the current penalty and the way it historically
                                         has been applied does not reflect the importance of
                                         timely filed information returns to the administration
                                         of the tax laws.
                              To place further emphasis on the importance of ensuring
                              timely submission of information documents, the Senate
                              Finance Committee concluded by saying:
                                         Although the committee is aware that the penalty for
                                         failure to file information returns has been little used
                                         in the past, it intends that the Internal Revenue
                                         Service will use this increased penalty more fully to
                                         protect the information reporting and withholding
                                         systems.
                              If the tax law was amended to provide that, whenever a
                              partnership or an S corporation return is filed late, a
                              $50 penalty is assessed for each Schedule K-1 not timely
                              submitted to the IRS, we estimate that $302.7 million in
                              additional penalty assessments would result between
                              CYs 2006 and 2010, while filing compliance would
                              improve. See Appendix IV for details.




                              36
                                   S. Rep. No. 97-494, 97th Cong., 2nd Session, 254 (1982).
                                                                                              Page 23
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              The burden of proof that Schedules K-1 were timely
                              provided to partners and shareholders should rest on the
                              pass-through businesses
                              I.R.C. § 672237 provides for a penalty of $50 for each
                              Schedule K-1 that is not timely provided to an investor in a
                              partnership or an S corporation.38 However, the IRS could
                              provide no evidence that this penalty is being routinely
                              assessed.
                              In TY 2001 alone, there were approximately 1.7 million
                              partners and shareholders in 688,000 pass-through
                              businesses that filed a late return. Therefore, it seems
                              highly unlikely that all related Schedules K-1 were timely
                              distributed to the partners and shareholders. Since the
                              Schedules K-1 detail each individual’s portion of the gains
                              and losses shown on the business return and there is little
                              reason to delay the filing of the business returns once they
                              are prepared, it is reasonable to assume that the filing dates
                              of the business returns should very closely approximate the
                              distribution dates of the Schedules K-1.
                              Since, under current law, to assess this penalty the IRS must
                              know that an individual has not timely received a
                              Schedule K-1, it would seem this penalty could be assessed
                              only if the IRS contacted taxpayers to determine the dates
                              they received their Schedules K-1 or if the IRS found
                              evidence of untimely Schedule K-1 distribution during an
                              examination of a pass-through business return. Both
                              methods would place an enormous administrative burden on
                              the IRS.
                              If the tax law was amended to provide that the Schedule K-1
                              distribution date to the partners and shareholders is assumed
                              to be 7 days before the filing of a partnership or
                              S corporation return, and that the I.R.C § 6722 penalty is
                              automatically assessed on partnership and S corporation
                              returns filed more than 7 days after the return due date, we
                              estimate that penalty assessments of $299 million would
                              result between CYs 2006 and 2010, while filing compliance
                              would improve. See Appendix IV for details.

                              37
                                26 U.S.C. § 6722 (2003).
                              38
                                26 U.S.C § 6724(d)(2) defines payee statements to include
                              Schedule K-1.
                                                                                            Page 24
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              The deterrent effect of the fixed-dollar penalties for
                              late-filed pass-through businesses has eroded over time
                              The penalty for the late filing of a partnership return can be
                              rather modest. I.R.C. § 6698 sets the penalty at $50 per
                              partner39 for each month, or fraction of a month, the return is
                              filed late. Therefore, a partnership that files its return
                              1 month late would be potentially subject to a maximum late
                              filing penalty of $50 per partner. The same $50 maximum
                              penalty per partner would apply to the partnership
                              regardless of whether its pass-through income produced
                              $1,000 or $10,000 in individual income tax liabilities per
                              partner.
                              In contrast, the penalty for the late filing of an individual
                              income tax return equals 5 percent of any unpaid tax amount
                              per each month of delinquency.40 Therefore, an individual
                              who files a return 1 month late will be penalized $50 on a
                              $1,000 unpaid tax liability, the same amount as the per
                              partner late-filing penalty for partnerships. However, unlike
                              the partnership penalty, the individual’s penalty would
                              increase to $500 if the individual’s unpaid tax liability rose
                              to $10,000.
                              In this way, it is possible for a late-filing partnership to
                              distribute income that causes a taxpayer to owe $10,000 in
                              tax and pay $500 per month in penalties while subjecting
                              the partnership to only a $50 penalty per month. This
                              imbalance seems to indicate a need for more substantial
                              deterrents to the late filing of pass-through business returns.
                              The amount of the penalty for a late-filed partnership return
                              has not been increased since its enactment by the Congress
                              in 1978. As a result, the current penalty carries the
                              equivalent value of only a $17.22 penalty in 2004 dollars.
                              Put another way, to impose the same economic impact on a
                              late-filing partnership in 2004 would require the penalty to

                              39
                                 If the number of partners in a partnership is not known, the IRS
                              procedures for computing the penalty assume there are two partners.
                              40
                                 26 U.S.C. § 6651 (2003). The penalty for a late-filed individual
                              income tax return is 5 percent per month of the net tax due and generally
                              cannot exceed 25 percent of the delinquent taxes. The late-filing penalty
                              is reduced by the amount of the Failure to Pay (FTP) Penalty if they
                              apply concurrently. The FTP Penalty is assessed on the unpaid tax due
                              at a rate of 0.5 percent per month.
                                                                                             Page 25
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              be $145.17 per partner per month. However, even at that
                              level, inflation would again degrade the penalty’s economic
                              impact.
                              Inflation has been growing at an annual compound rate of
                              4.185 percent per year since 1978. At this rate of growth,
                              tripling a penalty in CY 2004 that was $50 in 1978 would
                              maintain the same or more impact than in 1978 only until
                              CY 2005. After that point, the penalty’s impact would
                              again fall below the 1978 level. However, increasing the
                              penalty to $200 would preserve the impact of the penalty at
                              or above the 1978 level until CY 2012.
                              Changing the tax law to increase the various fixed-dollar
                              late-filing penalties for partnerships and S corporations to
                              $200 per occurrence would help reduce filing
                              noncompliance by imposing more appropriate financial
                              costs on it. It would also compensate for past inflation and
                              would continue to be a viable deterrent until CY 2012. We
                              estimate this change would result in an increase in penalty
                              assessments of $5.1 billion between CYs 2006 and 2010
                              while improving filing compliance. See Appendix IV for
                              details.

                              Recommendations

                              To improve the filing compliance of pass-through
                              businesses and to ensure fairness in the tax system for all
                              similarly situated pass-through businesses, the
                              Commissioner, Small Business/Self-Employed (SB/SE)
                              Division, and the Commissioner, Large and Mid-Size
                              Business (LMSB) Division, should coordinate with the
                              Office of Chief Counsel to develop a legislative proposal for
                              the IRS Commissioner to submit to the Department of the
                              Treasury that would amend I.R.C. § 6698 to:
                              1. Require the assessment of late-filing penalties regardless
                                 of the number of partners in a partnership.
                              Management’s Response: The Commissioner, SB/SE
                              Division, disagreed with our recommendation to eliminate
                              reasonable cause exceptions that are based solely on the
                              number of partners in a partnership. The Commissioner
                              stated the existing statutory provision does not permit a
                              partnership composed of a certain number of partners to
                                                                                   Page 26
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              automatically avoid the I.R.C. § 6698 penalty; Revenue
                              Procedure 84-35 was issued to provide the reasonable cause
                              exceptions consistent with Congressional intent. The
                              Commissioner believes our recommendation essentially
                              called for the reversal of Revenue Procedure 84-35. The
                              Commissioner stated this Revenue Procedure provides for a
                              reasonable cause standard to apply when a partnership has
                              10 or fewer partners, all of whom have included their share
                              of the partnership income in their income tax returns. If any
                              partner fails to correctly or timely file his or her individual
                              income tax return, the partnership would not be entitled to
                              the reasonable cause exception. The Commissioner believes
                              this Revenue Procedure actually encourages partners to
                              correctly and timely file individual returns so their
                              partnership may qualify for the reasonable cause exception.
                              Office of Audit Comment: Regarding our recommendation
                              to eliminate reasonable cause exceptions that are based
                              solely on the number of partners in a partnership, we agree
                              it is IRS Revenue Procedure 84-35, not I.R.C. § 6698, that
                              permits 97 percent of late-filing partnerships to potentially
                              qualify for reasonable cause exceptions to the I.R.C. § 6698
                              late-filing penalty based solely upon the number of partners.
                              However, we disagree that the Revenue Procedure reflects
                              the intent of the Congress when it established the late-filing
                              penalty present in I.R.C. § 6698.
                              While the IRS contends reasonable cause exceptions are
                              available only when all partners have timely and accurately
                              reported their pass-through income, if a partnership claims
                              that its partners have met this requirement, the burden of
                              proof for establishing the veracity of such a statement is
                              effectively shifted to the IRS. As this is an unreasonable
                              and costly administrative burden for the IRS to undertake on
                              a universal basis, it is unlikely the IRS will challenge the
                              assertion of compliance by a pass-through business except
                              under extraordinary circumstances. Furthermore, we do not
                              believe the number of partners participating in a partnership
                              accurately reflects the economic ramifications of late filing
                              by the partnership. As demonstrated on page 18, the highest
                              economic ramifications are reflected in partnerships with the
                              fewest number of partners. For these reasons, we continue
                              to believe the IRS should seek Congressional assistance in

                                                                                     Page 27
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              codifying in the I.R.C. the proper basis for exceptions to the
                              I.R.C. § 6698 penalty.
                              2. Prohibit the granting of reasonable cause exceptions
                                 regarding late-filing penalties applicable to partnerships
                                 that file returns late despite having been granted the
                                 privilege of extensions of time to file.
                              Management’s Response: The Commissioner, SB/SE
                              Division, disagreed with our recommendation to eliminate
                              reasonable cause exceptions for late-filing penalties when a
                              partnership files its return after the extension date has
                              passed. The Commissioner believes the reasoning in the
                              report is that an entity that receives an extension of time to
                              file, then fails to file by the extended due date, has
                              committed “repetitive noncompliance.” However, under
                              current law, a partnership that is granted an extension of
                              time to file is in compliance with the law. A partnership
                              that received an extension of time to file a return and
                              nevertheless filed an inaccurate or untimely return may still
                              meet the reasonable cause exception of the I.R.C. The fact
                              that the partnership files its return after the extension of time
                              to file has passed has no bearing on whether the partnership
                              is entitled to the reasonable cause exception. The failure to
                              file a timely or correct return after receiving an extension to
                              file does not represent a repetitive act of noncompliance.
                              The Commissioner further stated there was a lack of
                              information or statistics to demonstrate that adopting this
                              recommendation would result in increased compliance.
                              Office of Audit Comment: Regarding our recommendation
                              to eliminate reasonable cause exceptions for partnerships
                              that file after their extended due dates, we agree that
                              obtaining an extension of time to file does not represent a
                              violation of tax law. While our discussion on pages 6
                              through 8 provided examples of flagrant noncompliance as
                              well as examples of repetitive noncompliance, it was
                              Figure 6 that demonstrated the repetitive noncompliance of
                              pass-through businesses over several years. The data
                              presented in Figure 4 regarding taxpayers with extended due
                              dates covered only 1 year and demonstrated that 45 percent
                              of late-filed partnership returns and 38 percent of late-filed
                              S corporations returns had failed to file by their extended
                              due dates. While these are not repetitive acts of

                                                                                      Page 28
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              noncompliance, they are multifaceted acts of
                              noncompliance. We believe failure by a pass-through
                              business to file a timely return after being granted the
                              privilege of an extension of time to file simultaneously
                              demonstrates a failure to honor the terms of the extension
                              privilege, a lack of respect for the statutes that require the
                              timely filing of returns, and a lack of concern for the ability
                              of its partners or shareholders to be able to file timely and
                              accurate returns. Although the IRS stated such failures meet
                              the reasonable cause exception of the I.R.C., as the IRS
                              pointed out in its response, it is Revenue Procedure 84-35,
                              not the I.R.C., that provides for the reasonable cause
                              exceptions. For these reasons, we believe the IRS should
                              seek Congressional assistance in codifying in the I.R.C. the
                              proper basis for exceptions to the I.R.C.
                              § 6698 penalty.
                              3. Increase the penalty for late-filed partnership returns
                                 from $50 per partner per month to $200 per partner per
                                 month (at a minimum).
                              Management’s Response: See response to
                              Recommendation 8.
                              Office of Audit Comment: See response to
                              Recommendation 8.
                              4. Remove the 5-month limitation on the number of
                                 months of delinquency the late-filing penalty is assessed
                                 on partnership returns.
                              Management’s Response: See response to
                              Recommendation 8.
                              Office of Audit Comment: See response to
                              Recommendation 8.
                              5. Make all requirements of I.R.C. § 6698 applicable to
                                 S corporations as well as partnerships.
                              Management’s Response: The Commissioner, SB/SE
                              Division, agreed with the concept of including
                              S Corporations in the same code section. See response to
                              Recommendation 8.
                              Office of Audit Comment: See response to
                              Recommendation 8.
                                                                                     Page 29
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              To improve the ability of the IRS to timely, efficiently, and
                              accurately match Schedule K-1 data to individual income
                              tax returns, the Commissioner, SB/SE Division, and
                              Commissioner, LMSB Division, should coordinate with the
                              Office of Chief Counsel to develop a legislative proposal
                              that would amend I.R.C. § 6721 to:
                              6. Require the assessment of a $200 penalty (at a
                                 minimum) per Schedule K-1 for the failure to timely
                                 provide Schedules K-1 to the IRS when a partnership or
                                 an S corporation return is filed late.
                              Management’s Response: See response to
                              Recommendation 8.
                              Office of Audit Comment: See response to
                              Recommendation 8.
                              To improve the filing and reporting compliance of the
                              individual partners and shareholders that depend on the
                              timely receipt of payee statements from partnerships and
                              S corporations, the Commissioner, SB/SE Division, and
                              Commissioner, LMSB Division, should coordinate with the
                              Office of Chief Counsel to develop a legislative proposal
                              that would amend I.R.C. § 6722 to:
                              7. Require the assessment of a $200 penalty (at a
                                 minimum) per Schedule K-1 for the failure to timely
                                 provide Schedules K-1 to payees when a partnership or
                                 an S corporation return is filed more than 7 days beyond
                                 the return due date (as extended).
                              Management’s Response: See response to
                              Recommendation 8.
                              Office of Audit Comment: See response to
                              Recommendation 8.
                              To determine whether more significant penalties are needed
                              to improve filing compliance of pass-through businesses,
                              the Commissioner, SB/SE Division, should:
                              8. Conduct a study to determine whether fixed-dollar
                                 penalties set at a $200 level in I.R.C. §§ 6698, 6721, and
                                 6722 will be effective in ensuring future compliance or
                                 whether other penalty types and/or higher amounts
                                 would be more effective.
                                                                                    Page 30
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Management’s Response: The Commissioner, SB/SE
                              Division, stated the decision to implement
                              Recommendations 3 through 7 requires not only further
                              study but also input and concurrence from the Department
                              of the Treasury Office of Tax Policy. The Commissioner,
                              SB/SE Division, stated the IRS will consult with the
                              Department of the Treasury Office of Tax Policy regarding
                              the value and merit of conducting a study of the current
                              penalty structure, related to the filing of pass-through
                              returns, to determine if changes to the levels and types of
                              penalties would be effective in increasing filing compliance.
                              The decision as to whether to take further action will be
                              made jointly with the Department of the Treasury.
                              Office of Audit Comment: We are encouraged the IRS
                              plans to discuss with the Department of the Treasury
                              whether to study the remaining recommendations that would
                              increase various fixed-dollar penalties from the current
                              $50 level to $200 to counteract inflation that has occurred
                              since the establishment of the current penalty levels; remove
                              the 5-month limit on the assessment of the I.R.C. § 6698
                              penalty; subject S corporations to the I.R.C. § 6698 penalty;
                              subject partnerships and S corporations to penalties for not
                              filing timely Schedules K-1 with the IRS; and simplify the
                              assessment criteria for failure to timely provide
                              Schedules K-1 to partners or S corporation shareholders.
                              However, from preliminary discussions it was our
                              understanding that these recommendations would receive
                              prompt attention and that further study would involve only
                              determinations of whether fixed-dollar penalties set at a
                              $200 level, in accordance with our recommendations, would
                              be sufficiently stringent to achieve and maintain filing
                              compliance among pass-through businesses. The IRS
                              written response indicates that no changes in the treatment
                              of late-filing pass-through businesses will be acted upon
                              unless it is decided that a future study is warranted. We
                              believe the need for at least some immediate action is
                              highlighted on page 25, where we point out that the $50
                              late-filing penalty for partnerships established by the
                              Congress in 1978 had the economic equivalent of only
                              $17.22 in 2004. Given the serious levels of noncompliance
                              discussed in the report, we believe immediate action, not
                              potential future study, is warranted.

                                                                                   Page 31
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                              Finally, regarding IRS concerns about the revenue that
                              would be generated by our recommendations, we agree with
                              the IRS that penalties should be viewed as a means to
                              encourage compliance. As was discussed in the IRS Penalty
                              Policy Statement P-1-18, additional revenue is a by-product
                              of the effort to achieve voluntary compliance, not a goal in
                              itself. We also agree that such additional revenue will
                              decrease over time as compliance improves. It is for that
                              reason that increasing compliance and decreasing penalty
                              revenues were reflected in the computations supporting our
                              outcome measures in Table 4 of Appendix IV.




                                                                                  Page 32
     Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                          and Ensure Fairness in the Tax System

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the existing laws, tax regulations,
and Internal Revenue Service (IRS) policies and practices are adequate, effective, and fair for
promoting filing compliance among pass-through businesses. To accomplish this objective, we:
I.       Researched tax laws and regulations regarding timely filing by pass-through businesses.
         A.      Researched historical changes to the Internal Revenue Code and regulations
                 regarding late-filing penalties for pass-through businesses and the reasons for
                 changes, where possible.
         B.      Identified differences in filing requirements and related penalties for
                 noncompliance among like-situated organizations.
II.      Reviewed available IRS records, studies, reports, and general statistics regarding filing
         noncompliance and related penalties.
         A.      Obtained and computer-analyzed a computer extract of IRS Business Master File1
                 information consisting of all partnerships and S corporations filing late returns
                 during Calendar Years 2000 through 2003 for Tax Years (TY) 1999 through 2002
                 (the most current years for which complete data were available).
                    1. Determined whether statutory penalties were being assessed, additional
                       penalties were needed to improve compliance and fairness, and penalty
                       amounts were adequate to effect compliance.
                    2. Quantified the differences in penalties applied to each type of organization.
                    3. Identified trends in filing noncompliance and quantified incidences of
                       repeated noncompliance.
         B.      Quantified the TY 2001 impact of late filing by pass-through businesses on their
                 individual partners and shareholders.
                    1. Obtained a computer extract of the IRS Information Returns Master File2 to
                       identify individual partners or shareholders and the amount of operating
                       profits they received from the late-filing pass-through businesses.



1
  The IRS database of Federal tax-related transactions and accounts for business taxpayers.
2
  The IRS database of information returns received from employers, financial institutions, and other businesses
reporting wages, interest, dividends, nonemployee compensation, and other types of income. The IRS uses these
information documents in its computer-matching programs to determine whether the income recipients filed tax
returns and/or reported all of their income.
                                                                                                          Page 33
    Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                         and Ensure Fairness in the Tax System

                    2. Obtained IRS Individual Master File3 computer extracts of the accounts of
                       the individual partners and shareholders to determine their filing timeliness.
                    3. Obtained an IRS Return Transaction File4 extract to determine whether
                       operating profits from late-filed pass-through business returns were
                       reflected on the individual income tax returns filed by the partners and
                       shareholders.




3
 The IRS database of Federal tax-related transactions and accounts for individual taxpayers.
4
 An IRS file containing data transcribed from each tax return as well as computer-generated information used to
verify the accuracy of the transcribed data.




                                                                                                          Page 34
  Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                       and Ensure Fairness in the Tax System

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
Theodore J. Lierl, Senior Auditor
Denise Gladson, Auditor
Debra D. Mason, Auditor
Marcus D. Sloan, Auditor
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Layne D. Powell, Information Technology Specialist




                                                                                       Page 35
  Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                       and Ensure Fairness in the Tax System

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Business Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
Division SE:S:CGL&D
Director, Strategy, Research, and Program Planning, Large and Mid-Size Business Division
SE:LM:SR
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 36
    Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                         and Ensure Fairness in the Tax System

                                                                                    Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration for Calendar Years (CY) 2006 through
2010. These benefits will be incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Increased Revenue – Potential; $253.5 million from limiting exceptions to the delinquency
     penalty for late-filed partnership returns (see page 18, and page 40 item R).
•    Increased Revenue – Potential; $444.2 million from establishing a delinquency penalty for
     late-filed S corporation returns (see page 21, and page 40 item S).
•    Increased Revenue – Potential; $316.2 million from removing the limit on the number of
     months to which the delinquency penalty applies to late-filed pass-through business returns
     (see page 22, and page 40 item T).
•    Increased Revenue – Potential; $302.7 million from establishing a penalty for delaying the
     submission of Partner’s Share of Income, Credits, Deductions, etc. (Schedule K-1) or
     Shareholder’s Share of Income, Credits, Deductions, etc. (Schedule K-1) to the Internal
     Revenue Service (IRS) (see page 23, and page 40 item U).
•    Increased Revenue – Potential; $299 million from the automatic assessment of penalties for
     delaying the issuance of Schedules K-1 to the individual partners and shareholders
     (see page 24, and page 40 item V).
•    Increased Revenue – Potential; $5.1 billion from adjusting for inflation the amount of the
     fixed-dollar delinquency penalties related to pass-through businesses (see page 26, and page
     41 item AH).
•    Increased Revenue – Potential; $1.2 billion in individual income taxes realized from the more
     accurate reporting of ordinary gains received by individual partners and shareholders from
     pass-through businesses (see page 14, and page 43 item O).
Methodology Used to Measure the Reported Benefit:
To determine the amounts of increased revenues from various penalty increases to encourage
compliance, we used computer programs to calculate the penalties using the actual number of
months each late-filed pass-through return was filed beyond the return due date (as extended)
and the number of partners and shareholders in the pass-through business. In determining the
number of partners in partnerships, we used the actual number of partners as reflected on the



                                                                                           Page 37
     Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                          and Ensure Fairness in the Tax System

IRS Business Master File (BMF).1 We were unable to obtain exact counts of the number of
shareholders for each late-filing S corporation; therefore, we relied on the average number of
1.8 shareholders per S corporation as reflected in the IRS Statistics of Income function
publications for Tax Year (TY) 2001.
To determine the annual increases in noncompliance levels, we obtained an extract of IRS BMF
data and identified the actual volumes of late-filed returns received each calendar year from
CYs 2000 through 2003. We then determined the average annual increase in late-filed returns
(8.3 percent). We applied this rate of increase to TYs 2002 through 2005 noncompliance
statistics to determine the degree of noncompliance that would likely exist in the earliest year in
which new penalties were likely to be applied (TY 2005/CY 2006). No further noncompliance
increases were assumed for later years since we assumed that more stringent penalty
enforcement would arrest the growth of noncompliance.
          Table 1: Recommended Penalties Based on TY 2001 Noncompliance (Returns Due in CY 2002)
          and Average Annual Noncompliance Growth Rate From CYs 2000 Through 2003 (8.3 percent)
                                               TY 2001 ACTUAL    TY 2002        TY 2003        TY 2004        TY 2005
                                               DUE IN CY 2002 DUE IN CY 2003 DUE IN CY 2004 DUE IN CY 2005 DUE IN CY 2006
 A) Partnership penalties for late-filed
returns - $50 per partner per month,           $    98,223,500   $ 106,376,051    $   115,205,263   $ 124,767,299   $   135,122,985
limit 5 months
B) S corporation penalties for late-filed
returns - $50 per shareholder per              $   120,491,910   $ 130,492,739    $   141,323,636   $ 153,053,498   $   165,756,938
month, limit 5 months
C) Late filing penalties for months late
                                               $    85,773,140   $   92,892,311   $   100,602,372   $ 108,952,369   $   117,995,416
in excess of 5
D) Penalties for late filing of Schedules
                                               $    82,113,430   $   88,928,845   $    96,309,939   $ 104,303,664   $   112,960,868
K-1 with the IRS
E) Penalties for late issuance of
                                               $    81,096,030   $   87,827,000   $    95,116,642   $ 103,011,323   $   111,561,263
Schedules K-1 to investors
F) Total penalties for late filing (total of
                                               $   467,698,010   $ 506,516,945    $   548,557,851   $ 594,088,153   $   643,397,470
item A through item E)
G) Total pass-through businesses
                                                      687,571          744,639           806,444          873,379          945,870
penalized (recommended)
H) Average recommended penalties
for late filing prior to inflation             $       680.22    $      680.22    $       680.22    $      680.22   $       680.22
adjustment (item F / item G)
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS Master File data.

To determine the volume and dollar value of penalties that would likely be assessed by the IRS
in future years, given current laws, regulations, and IRS operating procedures, we analyzed
IRS BMF data to determine the actual volume and dollar amounts of penalties assessed for
TY 2001 related to late-filed partnership returns. We applied the average annual noncompliance
increase of 8.3 percent to these figures to determine future values.




1
    The IRS database of Federal tax-related transactions and accounts for business taxpayers.
                                                                                                                           Page 38
  Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                       and Ensure Fairness in the Tax System

                        Table 2: Actual TY 2001 and Estimated Future IRS Penalty Assessments
                                      Related to Late-Filed Partnership Returns
                                            TY 2001 ACTUAL    TY 2002        TY 2003        TY 2004        TY 2005
                                            DUE IN CY 2002 DUE IN CY 2003 DUE IN CY 2004 DUE IN CY 2005 DUE IN CY 2006
I) Late-filing partnerships                          187,744      203,327        220,203        238,480        258,274
J) Partnerships penalized under
current conditions (actual TY 2001                    30,889             33,453              36,229           39,236                42,493
increased by 8.3% annually)
K) Penalty per partnership actually
                                            $         511.47    $        511.47    $         511.47    $      511.47    $           511.47
penalized (actual TY 2001)
L) Partnership late-filing penalties
                                            $     15,798,797    $    17,110,097    $      18,530,235   $   20,068,245   $     21,733,909
(item K * item J)
Source: TIGTA analysis of IRS Master File data. Minor differences may result from the rounding of multiplicands.

We assumed that pass-through businesses could achieve the same level of filing compliance as
individual taxpayers (95.6 percent) after 5 years of increased penalty enforcement. Using the
remaining noncompliance level (4.4 percent), we determined the number of returns that would
still be filed late based upon the volume of returns filed for TY 2001 (due in CY 2002). We then
used this volume to compute the percentage of TY 2001 late-filed returns that would still be late
if the overall pass-through return population contained 4.4 percent of noncompliance. This
number was expressed as a percentage of late pass-through returns, representing the ultimate rate
of noncompliance expected among existing late filers (33 percent of existing late filers).
          Table 3: Impact of Assumption That Pass-Through Businesses Will Become As Compliant As
                                              Individual Filers
Filing noncompliance rate for individuals                                                                                   4.4%

Pass-through returns filed for TY 2001                                                                              5,118,603

Noncompliant pass-through businesses expected at individual noncompliance rate (4.4% of returns)                        225,219
Actual noncompliant pass-through businesses TY 2001                                                                     687,571

Percent of noncompliant taxpayers that will continue noncompliance (225,219 of 687,571)                                     33%
Source: TIGTA analysis of IRS Master File data.

Using the CY 2006 penalty assessments from Tables 1 and 2 as well as the assumptions
regarding future noncompliance levels shown in Table 3, we computed the penalties that would
be assessed for the late filing of pass-through returns as filing compliance improved.




                                                                                                                                   Page 39
   Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                        and Ensure Fairness in the Tax System

               Table 4: Annual Penalty Assessments Expected As Future Filing Compliance Improves
                                                CY 2006           CY 2007          CY 2008           CY 2009          CY 2010          TOTAL
M) New compliance level for current
                                                 20%               35%              50%               60%              67%               N/A
late filers
N) Remaining noncompliance for
                                                 80%               65%              50%               40%              33%               N/A
current late filers

O) Recommended partnership
penalties for late-filed returns - $50 per
                                           $    108,098,388   $   87,829,940   $    67,561,493   $   54,049,194   $    44,590,585   $ 362,129,601
partner per month, limit 5 months (item
A for CY 2006 * item N)
P) Partnership late-filing penalties
normally assessed (see item L for CY $           21,733,909   $   21,733,909   $    21,733,909   $   21,733,909   $    21,733,909   $ 108,669,544
2006)
Q) Net increase in partnership late-        $    86,364,479   $   66,096,032   $    45,827,584   $   32,315,285   $    22,856,676   $ 253,460,057
filing penalties (item O minus item P)

R) Net increase in partnership late-
                                            $    86,364,479   $   66,096,032   $    45,827,584   $   32,315,285   $    22,856,676   $ 253,460,057
filing penalties (see item Q)
S) S corporation penalties for late-filed
returns - $50 per shareholder per
                                            $   132,605,550   $ 107,742,010    $    82,878,469   $   66,302,775   $    54,699,790   $ 444,228,594
month, limit 5 months (item B for CY
2006 * item N)
T) Late-filing penalties for months late
in excess of 5 (item C for CY 2006 *        $    94,396,333   $   76,697,020   $    58,997,708   $   47,198,166   $    38,938,487   $ 316,227,715
item N)
U) Penalties for late filing of Schedules
K-1 with the IRS @$50 (item D for CY        $    90,368,694   $   73,424,564   $    56,480,434   $   45,184,347   $    37,277,086   $ 302,735,126
2006 * item N)
V) Penalties for late issuance of
Schedules K-1 to investors @$50             $    89,249,010   $   72,514,821   $    55,780,631   $   44,624,505   $    36,815,217   $ 298,984,184
(item E for CY 2006 * item N)
W) Total increases in late-filing
penalties @$50 each (total of items R       $   492,984,067   $ 396,474,446    $   299,964,826   $ 235,625,079    $   190,587,256   $1,615,635,674
through item V)
Source: TIGTA analysis of IRS Master File data. Minor differences may result from the rounding of multiplicands.

We then determined the impact of increasing penalties for inflation to $200 per occurrence from
the current $50 per occurrence. The increase is intended to adjust the current penalties for
inflation, particularly the $50 penalty level for late-filed partnership returns that was set in 1978.
Adjusted for inflation, this amount would need to be $145.17 in CY 2004 to have the same
economic impact as $50 did in 1978. By CY 2006, the amount needed to compensate for
inflation will likely require that the penalty exceed $150 to achieve the same level of economic
impact. We therefore recommend the $200 level to compensate for past and several years of
future inflation.
By analyzing IRS BMF data, we determined whether the penalties at this level would exceed the
legal maximum amount of each penalty that applies to each type of penalty. We compared the
total amount of anticipated penalties at the $50 level to those at the $200 level to isolate and
quantify the net impact of raising penalties to the $200 level.




                                                                                                                                        Page 40
    Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                         and Ensure Fairness in the Tax System

                           Table 5: Impact of Adjusting Recommended Penalties for Inflation2
                                            CY 2006             CY 2007          CY 2008           CY 2009          CY 2010          TOTAL
AA) Partnership late-filing penalties
                                        $     21,733,909    $   21,733,909   $    21,733,909   $   21,733,909   $    21,733,909   $ 108,669,544
normally assessed (see item P)
AB) Total increases in late-filing
                                        $    492,984,067    $ 396,474,446    $   299,964,826   $ 235,625,079    $   190,587,256   $1,615,635,674
penalties @$50 each (see item W)
AC) Total penalties recommended or
currently assessed @$50 (item AA +      $    514,717,976    $ 418,208,355    $   321,698,735   $ 257,358,988    $   212,321,165   $1,724,305,219
item AB)
AD) Total gross pass-through late-
filing penalties @ $200 each (item AC   $   2,058,871,903   $1,672,833,421   $ 1,286,794,939   $1,029,435,951   $   849,284,660   $6,897,220,874
* 4)
AE) Percentage of penalties below
current maximums per late return if
                                             97.4%              97.4%            97.4%             97.4%            97.4%             97.4%
penalties @ $200 each* (actual TY
2001)
AF) Net assessable pass-through
penalties @$200 each (item AE * item    $   2,005,604,474   $1,629,553,635   $ 1,253,502,796   $1,002,802,237   $   827,311,845   $6,718,774,986
AD)
AG) Total increases in late-filing
penalties @$50 each (see item W or      $    492,984,067    $ 396,474,446    $   299,964,826   $ 235,625,079    $   190,587,256   $1,615,635,674
item AB)
AH) Net increase attributable to
adjusting new penalties for inflation   $   1,512,620,407   $1,233,079,188   $   953,537,970   $ 767,177,158    $   636,724,589   $5,103,139,312
(item AF minus item AG)
Source: TIGTA analysis of IRS Master File data. Minor differences may result from the rounding of multiplicands.

To determine the initial noncompliance level among the individual partners and shareholders in
late-filing pass-through businesses, we obtained a computer extract of TY 2001 Schedule K-1
information for all individual partners and shareholders in TY 2001 late-filing partnerships and
S corporations. We also obtained computer extracts of all TY 2001 tax returns filed, with and
without extensions of time to file, as well as information for all U.S. Individual Income Tax
Return (Form 1040) Supplemental Income or Loss (Schedule E) filers for TY 2001. With this
information, we determined through computer programming how many of the partners and
shareholders filed timely returns (as extended) and/or reported all of the ordinary income from
the late-filing pass-through businesses.
If the amount of total gains reported in Part II of Schedule E equaled or exceeded the amount
reported on the investor’s Schedule K-1, we considered that the taxpayer had reported all income
from the late-filing pass-through business. If the total gains reported in Part II of Schedule E
were less than the ordinary gain amount on the Schedule K-1, we considered the difference to be
underreported income. For partners and shareholders not filing tax returns or filing tax returns
without a Schedule E, we considered the entire ordinary income amount from the Schedules K-1
to be underreported. We did not track other items of income or loss from the Schedules K-1.
To determine the tax impact of the underreporting, we added the taxpayer’s underreported
income to the taxpayer’s taxable income as reflected on IRS records. We then used the IRS tax
tables in conjunction with the taxpayer’s filing status as reflected on IRS records to determine



2
 Amounts of penalties in excess of current legal maximums were determined by computer programs that computed
penalty amounts for each taxpayer at $200 each and compared the total penalties of each type to the legal maximum
for that penalty type. We are not recommending increases to legal maximums.
                                                                                                                                      Page 41
     Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                          and Ensure Fairness in the Tax System

the taxpayer’s marginal income tax rate. This rate was multiplied by the underreported income
to arrive at the tax loss amount.
When our computer analysis was complete, we computed the level of underreporting as a
percentage of the total ordinary gains reported by late-filing pass-through businesses
(partnerships and S corporations). We also expressed the overall tax loss as a percentage of the
overall amount of underreported ordinary income from late-filing pass-through businesses.
These percentages were applied to future tax periods to determine the level of expected
underreporting and the tax impact of that underreporting. We assumed that the noncompliance
among partners and shareholders in the pass-through businesses would grow at the same pace as
the noncompliance among the pass-through businesses (8.3 percent average annual growth).
             Table 6: Estimate of Income Underreporting by Individual Partners and Shareholders
             Based Upon TY 2001 Pass-Through Business Noncompliance (Returns Due in CY 2002)
          and Average Annual Noncompliance Growth Rate From CYs 2000 Through 2003 (8.3 percent)
                                        TY 2001 ACTUAL         TY 2002           TY 2003           TY 2004           TY 2005
                                        DUE IN CY 2002      DUE IN CY 2003    DUE IN CY 2004    DUE IN CY 2005    DUE IN CY 2006
A) Average annual growth in
noncompliance (actual CYs 2000                8.3%               8.3%              8.3%              8.3%              8.3%
through 2003)
B) Ordinary gains on late-filed pass-
through returns (actual TY 2001,
                                        $ 36,085,450,229    $39,086,956,776   $42,338,121,884   $45,859,711,589   $ 49,674,219,202
remaining years at 8.3% annual
growth)
C) Amount of ordinary gains
                                        $   1,025,117,902        N/A               N/A               N/A                N/A
underreported (actual TY 2001)
D) Percentage underreported with
                                              2.8%               2.8%              2.8%              2.8%              2.8%
actual TY 2001 rate (item C / item B)
E) Amount of ordinary gains
                                        $   1,025,117,902   $ 1,110,384,902   $ 1,202,744,220   $ 1,302,785,777   $ 1,411,148,567
underreported (item D * item B)
F) Tax loss as a percentage of
underreported income (actual TY             34.54215%            N/A               N/A               N/A                N/A
2001)
G) Maximum tax rate for tax year
                                             39.1%              38.6%             35.0%             35.0%             35.0%
(actual)
H) Tax loss as a percentage of
                                             88.3%              88.3%             88.3%             88.3%             88.3%
maximum tax rate (item F / item G)
I) Tax loss as a percentage of
underreported income (adjusted for           34.5%              34.1%             30.9%             30.9%             30.9%
post-TY 2001 tax rate reductions)
J) Tax loss as a result of
underreporting adjusted for post-TY
                                        $    354,097,784    $   378,646,099   $   371,889,534   $   402,822,469   $   436,328,336
2001 tax rate reductions (item I *
item E)
Source: TIGTA analysis of IRS BMF and Individual Master File3 data. Minor differences may result from the
rounding of multiplicands.

We assumed that improved filing compliance by pass-through businesses would lead to
improved filing compliance by partners and shareholders in those businesses. We assumed that
investor compliance would improve at the same rate as compliance by pass-through businesses.



3
    The IRS database of Federal tax-related transactions and accounts for individual taxpayers.
                                                                                                                         Page 42
  Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                       and Ensure Fairness in the Tax System

We therefore assumed the same remaining noncompliance level (33 percent of current
noncompliant taxpayers) as we assumed for noncompliant pass-through businesses.
                  Table 7: Estimate of Increased Tax Revenue As Filing Compliance Improves
                                TY 2005        TY 2006        TY 2007        TY 2008        TY 2009
                             DUE IN CY 2006 DUE IN CY 2007 DUE IN CY 2008 DUE IN CY 2009 DUE IN CY 2010                 TOTAL
K) Underreporting without
changes assuming 8.3% growth $ 1,411,148,567    $1,528,524,729   $1,655,663,976   $1,793,378,380   $1,942,547,558   $ 8,331,263,211
in noncompliance
L) Tax loss as a percentage of
                                  30.9%             30.9%            30.9%            30.9%            30.9%             N/A
underreported income
M) Tax loss from under-
                                $ 436,328,336   $ 472,621,145    $ 511,932,708    $ 554,514,119    $ 600,637,355    $ 2,576,033,662
reporting without changes
N) Cumulative percentage of
current underreporters brought
into compliance due to more        20%              35%              50%              60%              67%               N/A
timely pass-through business
reporting
O) Reduction in tax loss from
underreporting at new
                                $  87,265,667   $ 165,417,401    $ 255,966,354    $ 332,708,471    $ 402,427,028    $ 1,243,784,921
compliance level (item N * item
M)
Source: TIGTA analysis of Master File data. Minor differences may result from the rounding of multiplicands.




                                                                                                                          Page 43
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System

                                                                      Appendix V


                 Management’s Response to the Draft Report




                                                                           Page 44
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System




                                                                           Page 45
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System




                                                                           Page 46
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System




                                                                           Page 47
Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns
                     and Ensure Fairness in the Tax System




                                                                           Page 48
